 DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


           Challenges in FEMA’s
     Flood Map Modernization Program




     Office of Information Technology
OIG-05-44                   September 2005
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by our office as
part of our DHS oversight responsibility to promote economy, effectiveness, and efficiency within
the department.

This report provides an assessment of the Federal Emergency Management Agency’s (FEMA)
Multi-Hazard Flood Map Modernization Program. It addresses FEMA’s program management
approach, coordination with stakeholders, and acquisition as well as use of information technology
(IT) to meet map modernization goals. The report is based on interviews with DHS and other
federal, state, local, and contracting officials nationwide; direct observations; and, a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Table of Contents/Abbreviations
  Executive Summary .........................................................................................................................1

  Background ......................................................................................................................................2

  Results of Audit ...............................................................................................................................4

          Approach to Map Modernization Could Be Improved ...........................................................4

          Coordination Activities Are Headed in the Right Direction.................................................18

          Mapping Platform and Tools Are At Risk............................................................................28

  Recommendations..........................................................................................................................38

  Management Comments and OIG Evaluation… ...........................................................................39

Appendices
  Appendix A:            Scope and Methodology.......................................................................................42
  Appendix B:            Management Response to Draft Report ...............................................................44
  Appendix C:            Major Contributors To This Report......................................................................58
  Appendix D:            Report Distribution...............................................................................................59

Figures
  Figure 1              Example of Flood Map Panel ..................................................................................2
  Figure 2              FEMA Regional Offices ..........................................................................................6
  Figure 3              Flooding in Asheville, North Carolina after Hurricane Frances..............................9
  Figure 4              Mapping Information Platform ..............................................................................29

Abbreviations

  DHS                   Department of Homeland Security
  FEMA                  Federal Emergency Management Agency
  GAO                   Government Accountability Office
  IT                    Information Technology
  MICS                  Monitoring Information on Contracted Studies
  MIP                   Mapping Information Platform
  MHIP                  Multi-Year Flood Hazard Identification Plan
  NAVD 88               North American Vertical Datum of 1988
  NGVD 29               National Geodetic Vertical Datum of 1929
  OIG                   Office of Inspector General


                                    Challenges in FEMA’s Flood Map Modernization Program
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                Floods are among the most frequent and costly of all natural disasters and
                have great impact in terms of economic and human losses each year. Property
                damage resulting from floods totals over $5 billion annually and caused more
                than 900 deaths from FY 1992 to 2001. Communities with effective and
                accurate flood maps are prepared to prevent not only economic devastation,
                but to preserve life as well. Since 1978, FEMA has been charged with
                assisting communities by producing flood maps that detail areas at risk;
                identify where flood insurance is needed; and, help limit construction within
                flood zones. However, the majority of FEMA’s maps are outdated and in
                unalterable paper format. In response to demands for more accurate mapping
                products, FEMA has embarked on a six-year, $1.475 billion program to
                update and digitize the nation’s flood maps.

                As part of our ongoing responsibility to assess the efficiency and effectiveness
                of departmental programs and operations, we conducted an audit of FEMA’s
                Multi-Hazard Flood Map Modernization Program. The objectives of our audit
                were to assess FEMA’s management approach; coordination with federal,
                state, and local entities; and, acquisition and use of technology to meet map
                modernization program objectives. The scope and methodology of this audit
                are discussed in Appendix A.

                As a result of our audit, we determined that while FEMA is making progress
                in map modernization, a number of significant challenges remain.
                Specifically, FEMA has developed a plan that outlines the priorities,
                resources, and standards for accomplishing map modernization in
                communities across the U.S. However, because of budget limitations,
                FEMA’s plan does not reflect user or funding needs. Also, the plan does not
                provide guidance on how new mapping standards will be achieved. Due to
                these deficiencies, the plan discourages stakeholder buy-in and may not help
                FEMA meet its map modernization schedule and quality goals. A modified
                plan and improved FEMA control of map modernization costs, schedule, and
                performance would help ensure effective program results.

                Further, FEMA has enhanced its efforts to partner and communicate with its
                mapping stakeholders—but the agency has not maximized the benefits
                possible through these relationships. For instance, although FEMA has
                improved coordination of federal mapping activities, FEMA has not instituted
                the policies, agreements, or information sharing mechanisms to effectively
                support these interagency working arrangements. Similarly, while FEMA is

                    Challenges in FEMA’s Flood Map Modernization Program

                                           Page 1
             partnering more effectively with state and local government entities, these
             stakeholders are not fully engaged or aware of key map modernization
             objectives. A FEMA call center, established to address stakeholder inquiries,
             does not provide consistently effective service or accurate information,
             potentially placing communities at risk. Addressing these issues will help
             ensure effective use of intergovernmental resources, stakeholder commitment,
             and ultimate success in meeting overall map modernization goals.

             Additionally, as part of its map modernization efforts, FEMA is developing a
             web-based technology platform and tools to support efficient production and
             sharing of digital maps. However, FEMA’s IT development approach has
             limited program progress: unclear contractor expectations; underestimation of
             program scope and complexity; and, poorly defined requirements have
             resulted in significant system acquisition delays and cost overruns. Taking
             steps to assess progress, identify shortcomings, and make adjustments will
             help FEMA ensure that the technology acquisition achieves the functionality
             and cost savings it anticipates.

Background
             As a component of DHS’ Emergency Preparedness and Response Directorate,
             FEMA’s mission is to “reduce loss of life and property and protect our
             nation's critical infrastructure from all types of hazards through a
             comprehensive, risk-based, emergency management program of mitigation,
             preparedness, response and recovery.” FEMA’s Mitigation Division manages
             the National Flood Insurance Program, which was created in 1968 to reduce
             flood damage by identifying flood risks, encouraging sound floodplain
             management practices, and providing a mechanism through which citizens can
             insure their investments. To help determine insurance requirements, FEMA
             maintains an inventory of over 90,000 flood map panels. (See Figure 1.)
             However, 70 percent of the maps are more than 10 years old; many of the
             floodplains depicted on them were hand-drawn and are difficult to update.
             Continued community development over time has generally rendered the
             maps inaccurate and obsolete.




             Figure 1: Example of Flood Map Panel



                 Challenges in FEMA’s Flood Map Modernization Program

                                        Page 2
                         Pursuant to the National Flood Insurance Reform Act of 1994, 1 Congress
                         created the Technical Mapping Advisory Council. The Council was charged
                         with evaluating the production, distribution, and use of flood insurance rate
                         maps and making recommendations regarding cost-effective improvements in
                         the accuracy, quality, and distribution of mapping products. The Council
                         made recommendations on using standards and guidelines in the program, too.
                         Membership of the Council consisted of a FEMA Director designee as well as
                         ten representatives from federal and state governments, professional
                         associations with mapping interests, and lending institutions. The Council’s
                         final report, issued in 2000, included four general themes on which the Multi-
                         Hazard Flood Map Modernization Program ultimately would be based:

                             •    Providing additional resources for floodplain maps
                             •    Building interest and support for modernizing maps
                             •    Building partnerships to accomplish National Flood Insurance
                                  Program objectives
                             •    Creating a fully digital mapping environment

                         The Council’s recommendations, coupled with new federal direction on
                         geospatial information sharing, led to a more partnership-oriented approach to
                         flood mapping. For example, the Office of Management and Budget required
                         that federal agencies work together, as well as with state and local
                         governments and private industry, on geospatial data collection as a means of
                         reducing duplicative cost and effort. 2 Executive Order 12906, part of the
                         President’s e-government initiative, further strengthened policies on
                         information sharing outlined in Circular A-16. 3

                         In line with this direction, FEMA’s initial 1997 map modernization plan
                         included strategies for working with other government entities to update flood
                         maps and streamline risk mitigation operations. The map modernization
                         program has four key objectives: (1) establish and maintain a premier data
                         collection and delivery system; (2) achieve effective program management;
                         (3) build and maintain mutually beneficial partnerships; and, (4) expand and
                         better inform the user community. By producing more accurate and
                         accessible flood maps, FEMA expects to benefit communities that use the
                         maps to establish zoning and building standards, property owners that access
                         the maps on the internet to see if they need to obtain flood insurance, and
                         government officials that reference the maps to accurately locate
                         infrastructure and transportation systems to help manage homeland security
                         risks.


1
  Public Law 103-325, Title V, Section 576.
2
  Coordination of Geographic Information and Related Spatial Data Activities, Office of Management and Budget
Circular A-16, August 19, 2002.
3
  Coordinating Geographic Data Acquisition and Access: The National Spatial Data Infrastructure, Executive Order
12906, April 11, 1994.

                              Challenges in FEMA’s Flood Map Modernization Program

                                                      Page 3
                        However, because flood insurance revenues alone historically funded map
                        production, FEMA needed additional resources to move forward with its map
                        modernization plan. Congress provided FEMA with moderate annual funding
                        increases from FY 2000 to 2002 to support establishment of new standards
                        and guidelines for developing accurate, digital flood maps, expanding
                        mapping partnership efforts, and initiating best practices nationwide. With a
                        budget of $1.475 billion for a six-year period beginning in FY 2003, FEMA
                        has been able to move forward with its map modernization program.

                        FEMA’s OIG and the Government Accountability Office (GAO) reviewed
                        and reported on initial efforts to modernize flood maps. In September 2000,
                        the FEMA OIG reported that FEMA's methodology was sound, requirements
                        were reasonable, and no major cost elements were overlooked. 4 However, the
                        OIG recommended that FEMA improve the accuracy of its cost estimate by
                        verifying that data used in the estimate were accurate and that planned
                        mapping initiatives were cost effective. In addition, the OIG recommended
                        that FEMA maintain historical cost data on flood studies and other mapping-
                        related costs and refine its estimates of the impact of technological advances
                        on mapping costs.

                        Further, in a March 2004 report, GAO recommended that FEMA (1) develop
                        and implement standards to help the agency, its contractor, and state and local
                        partners collect, analyze, and use mapping data consistently for communities
                        with similar levels of risk; (2) develop and implement strategies for partnering
                        with communities of varying capabilities and resources; (3) ensure that staff
                        levels are sufficient to implement the map modernization program; and, (4)
                        develop and implement useful performance measures of stakeholder
                        awareness and map use. 5

Results of Audit

Approach to Map Modernization
Could Be Improved
                        With congressional funding and support, FEMA has revitalized its program
                        for modernizing the nation’s flood maps. FEMA has developed a plan
                        outlining the priorities and resources needed to accomplish map
                        modernization studies in communities across the U.S. However, because of
                        budget limitations, FEMA’s plan does not reflect user or funding needs.
                        Further, while the plan establishes a new mapping quality standard, it provides
                        no guidance on how the standard will be achieved. Due to these deficiencies,
4
  Audit of FEMA's Cost Estimate for Implementing the Flood Map Modernization Plan, FEMA OIG, Report Number H-
09-00, September 2000.
5
  Program Strategy Shows Promise, but Challenges Remain, U.S. Government Accountability Office (GAO-04-417,
March 2004).

                             Challenges in FEMA’s Flood Map Modernization Program

                                                    Page 4
                          the plan discourages stakeholder buy-in. More importantly, it may not help
                          FEMA meet its map modernization schedule and quality goals. Adjustments
                          to the plan and improved FEMA control of costs, schedule, and performance
                          would better ensure achievement of program goals.

Map Modernization Plan Has Limitations
                          Office of Management and Budget Circular A-11 establishes policies for
                          planning and managing investments, such as adequately addressing user,
                          funding, and quality requirements, to ensure that investments achieve intended
                          benefits. 6 To meet these requirements, FEMA has developed a
                          comprehensive plan that outlines priorities, funding, and standards for
                          carrying out mapping studies. However, the plan is hindered by budget
                          limitations and does not adequately address user or funding requirements. As
                          a result, the plan does not ensure buy-in or support for achieving map
                          modernization program goals and objectives.

                          Mapping Plans and Priorities

                          With a budget of $1.475 billion for a six-year period beginning in FY 2003,
                          FEMA has been able to move forward with its map modernization program.
                          In February 2003, FEMA and mapping stakeholders met at a conference in
                          Atlanta, Georgia to determine the factors for prioritizing mapping studies and
                          digitization of existing maps. The consensus was to focus on mitigating flood
                          risk in areas that had high growth, high population, and a history of significant
                          flooding. Participants also suggested that FEMA maximize efficiency by
                          conducting basin-wide studies and capitalizing on areas with pre-existing
                          mapping data.

                          In March 2004, FEMA awarded a single, performance-based contract to a
                          primary contractor responsible for executing the map modernization program.
                          FEMA charged the contractor with providing architectural and engineering
                          services, program management, IT systems development and support, data
                          collection activities, customer assistance, and outreach services. While
                          FEMA provides centralized program direction and contract oversight, the
                          contractor carries out decentralized map modernization activities, such as pre-
                          scoping, producing deliverables and work products, and generally supporting
                          the map modernization program on a day-to-day basis. To this end, the
                          contractor has established field offices to supplement the work of FEMA’s ten
                          regional offices. (See Figure 2.)




6
 Circular A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets, Executive Office of the
President, Office of Management and Budget, June 2002.

                               Challenges in FEMA’s Flood Map Modernization Program

                                                        Page 5
                         Figure 2: FEMA Regional Offices

                         FEMA’s regional offices are charged with hiring contractors to conduct
                         mapping studies. Alternatively, the regional offices grant funding to mapping
                         partners to perform the studies or hire indefinite delivery/indefinite quantity
                         contractors to work on their behalf. This arrangement allows FEMA to focus
                         on partnering with state and local entities, which ultimately will have
                         responsibility for maintaining the updated maps.
Mapping Studies
                         Because the FY 2003 congressional appropriation significantly increased
                         funding for the program, map modernization became subject to review and
                         approval by senior DHS leadership through its capital planning and
                         investment control process. Accordingly, in 2004, FEMA submitted
                         documentation to DHS’ senior-level Investment Review Board to support the
                         program. This documentation included an updated “Exhibit 300” business
                         case, required by the Office of Management and Budget to justify a major
                         acquisition program. 7 The update was based on FEMA’s 1997 map
                         modernization plan, the Technical Mapping Advisory Council
                         recommendations, and information on innovative technologies and geospatial
                         data sharing. In June 2004, DHS’ Investment Review Board approved the
                         map modernization program, authorizing capability development and
                         demonstration to begin. In its approval memorandum, the review board stated
                         that an effective implementation plan would be critical to success of the map
                         modernization program; and, required that FEMA submit to the Under
                         Secretary for Management a schedule for conducting community mapping
                         studies.


7
 Developed in accordance with Office of Management and Budget Circular A-11, Planning, Budgeting, Acquisition, and
Management of Capital Assets, business cases are designed to ensure that investments are linked to agency missions,
long-term goals and objectives, and annual performance plans.

                              Challenges in FEMA’s Flood Map Modernization Program

                                                      Page 6
In response to this direction, FEMA’s contractor provided the Multi-Year
Flood Hazard Identification Plan (MHIP) in November 2004. Built from state
business plans and assessments of relative flood risk, the MHIP proposes
budgets and establishes a sequence for conducting mapping studies among
regions and local communities. The MHIP also communicates the cost,
schedule, and performance expectations for map modernization activities.

MHIP Does Not Adequately Address Requirements

Despite FEMA’s efforts to obtain input, the MHIP does not adequately
address stakeholder needs. FEMA shared copies of the plan with a range of
audiences nationwide, including the Congress, DHS, and other federal, state,
and local mapping stakeholders. Also, FEMA posted the MHIP to its web
site, along with instructions for submitting comments on the plan. According
to a March 2005 FEMA analysis, the agency received a total of 103 individual
comments on the MHIP from 31 sources including state, county, and local
governments, trade associations, and private industry organizations. The
predominant concern was that the prescribed sequence of mapping studies
would not provide modernized maps by the required dates. Some
stakeholders commented that the MHIP strategy would not ensure production
of accurate and useable maps. Additionally, they asserted that proposed
budgets and strategies outlined in the MHIP are inadequate to support
mapping requirements at the state and local level. FEMA noted that it would
review the comments and make adjustments based on analysis of the feedback
received.

       Sequence of Mapping Studies

According to FEMA’s March 2005 analysis, 20 of the 31 stakeholders who
commented on the MHIP were concerned that the sequence of mapping
studies would not provide modernized maps by the dates needed. Generally,
the stakeholders requested that mapping studies for their areas be completed
sooner than scheduled so that they would be better positioned to protect and
insure against potential flood damage and loss. For example, officials in a
Minnesota county that lies along a major waterway said that their current
maps are highly inaccurate and difficult to use to manage flood risk. The
county requested improved flood plain maps much sooner than the scheduled
2007 production, 2008 completion, and 2010 adoption dates. Similarly, in
commenting on the MHIP, the Wisconsin Department of Natural Resources
submitted proposed changes to the sequence of mapping studies for the state
along with its business plan.

       Proposed Budgets Are Insufficient

A number of the stakeholders expressed concern that the proposed budgets
outlined in the MHIP are inadequate to meet nationwide requirements for map

    Challenges in FEMA’s Flood Map Modernization Program

                           Page 7
modernization. For instance, an Ohio official stated that the MHIP does not
reflect the state’s true mapping cost requirements. While the MHIP indicates
that Ohio is to receive between $13 and $15 million for map modernization,
the state’s actual mapping needs are approximately $41 million. This official,
who was unable to link the MHIP to either the Ohio business plan or the
state’s needs assessment, indicated that FEMA seemed to allocate funding for
map modernization based on pre-determined amounts rather than detailed
information provided by the state as input to the MHIP.

In another instance, Massachusetts flood hazard management officials said
that although the MHIP identifies $7 million in funding for the state over the
next five years, about $34 million is needed to modernize flood maps. These
officials said that the $34 million requirement cited in the state business plan
is based on careful analysis and reflects the minimum requirement to produce
accurate maps for areas that already have serious flood hazard problems.
Further, these officials said that if, in accordance with the MHIP,
Massachusetts is reduced to mapping the entire state with only $7 million over
a five-year period, the funding would be so thinly spread that it would only
cover digitizing existing maps—not conducting new studies to produce
accurate maps. Massachusetts communities have long expressed
dissatisfaction with inaccuracies in existing flood maps. They fear going back
to their communities with digital maps that incorporate the same deficiencies
that they have known for years. Massachusetts officials concluded that with
limited funding, they would not be able to generate the information they need
to regulate new construction and development around flood hazard areas.

Similarly, New York officials estimated their mapping costs to be $106
million, based on analysis to support the state’s business plan. However, the
MHIP allotted New York approximately $43 million for mapping purposes.
State officials believed that the MHIP budget was unrealistic. They said that
the direction to map the entire state within a five-year period is
counterproductive and ultimately will result in substandard maps, as they
would only be able to digitize existing, poor quality maps. In the past, the
state’s philosophy has been to provide highly accurate maps for high-risk
areas using available funding, and postpone mapping of less critical areas until
funding becomes available in the future. They said that until release of the
MHIP, FEMA regional officials seemed to share this point of view.

In its comments on the MHIP, the Association of State Flood Plain Managers
concurred that the states’ mapping needs assessments are not high-end “wish
lists” for detailed flood studies and mapping. Rather, association officials said
that the assessments represent minimum requirements for conducting detailed
studies in high priority areas alone. They asserted that increased urbanization
and population density in high-risk areas over the past few decades have
increased the requirement for more mapping studies and accurate maps.
Merely digitizing maps leads to a false sense of security among stakeholders

    Challenges in FEMA’s Flood Map Modernization Program

                           Page 8
as the newer maps, though computerized, will not provide the reliable
information needed to guard or insure against flood risk. (Figure 3 provides a
picture of some of the devastation possible due to flooding.) The association
concluded that while the proposed MHIP budget allocations are not adequate
to map the nation in five years, they could successfully provide accurate maps
for the top priority counties in the U.S.—if adjustments are made to the plan.




Figure 3: Flooding in Asheville, North Carolina after Hurricane Frances. (Photo by Leif
Skoogfors, September 17, 2004, taken from FEMA’s website.)

        Other Complexities of Map Modernization Not Addressed

Stakeholders believe that the MHIP does not adequately address other
significant factors needed to achieve FEMA’s map modernization goals.
First, the MHIP does not go far enough to ensure consistent production of
accurate maps. Previously, there was no clear standard for converting paper
maps to digital maps. Transferring floodplain illustrations from paper to
digitized format introduced significant errors. However, with publication of
the MHIP, FEMA has established “matching best available topography” as the
minimum standard for producing reliable and accurate maps. Under the new
standard, maps will no longer include errors that occur when topography is
not matched, such as streams depicted outside of floodplains or houses at a
40-foot elevation above the floodplain identified within flood zones.

Although stakeholders commended FEMA for establishing the new quality
standard, they expressed concern that the MHIP does not provide guidelines
for evaluating modernized maps to ensure that the standard is met. For
example, the MHIP does not provide detailed guidance concerning how to
select projects for testing, how to conduct testing, the extent to which testing
is done, and what to do in case of non-compliance. Representatives of the
Association of State Floodplain Managers said that without such guidance,

     Challenges in FEMA’s Flood Map Modernization Program

                             Page 9
ongoing mapping studies for FY 2005-2006 certainly would not meet the
standard. When asked about the lack of guidance for ensuring map quality,
FEMA officials said that, given other competing program management
responsibilities, they had not had the time to focus on clearly defining
methods for ensuring mapping accuracy. However, they recognize the
importance of publishing the guidelines and currently are soliciting input from
FEMA regions as to what procedures to include.

Second, stakeholders said that the MHIP does not present a long-term strategy
for map modernization. They want to know the scope of the long-term effort
versus the short-term priorities addressed in the initial effort. They want to
know FEMA’s strategy for mapping the entire nation. They want a clear
understanding of end-state objectives in map modernization, too. Finally,
they said that, in the context of a long-range strategy, the MHIP does not
adequately address costs for map maintenance and re-study.

For example, officials with the Illinois Association of Floodplain and
Stormwater Management said that the MHIP should reflect costs for both
short- and long-term map production and maintenance. A contractor noted
that the plan alludes to the availability of funding for map and data
maintenance as a component of engineering and mapping. However, this
official stated that nowhere in the MHIP does FEMA address the funding
needed for restudies to maintain the upgraded maps. The contractor said that,
without such funding, by 2010, the oldest of the modernized map would be
almost 10 years old. This official cautioned that FEMA must be careful not to
allow newly modernized maps to become outdated or they will once again
face the challenges they are currently experiencing.

In response to these concerns, FEMA officials acknowledged that the map
modernization program is a long-term effort and that they need a strategy for
updating existing maps as well as for keeping them current. They noted that,
within the context of the National Flood Insurance Program, they are
evaluating resources needed to meet evolving stakeholder requirements over
the life cycle of flood maps.

MHIP is Limited by Funding Allocations

The congressional appropriation in FY 2003 constituted a significant financial
increase to allow FEMA to move ahead with its map modernization program.
However, based on comments received about the MHIP, it still was not
enough to meet stakeholder needs for producing accurate, modernized maps.
In devising the MHIP, FEMA worked within the congressional funding and
time limitations to establish sequencing plans and allocate funding to states
and communities across the nation for map modernization. Although FEMA
had been in ongoing communication with stakeholders regarding their map
modernization funding needs and expectations, with respect to the MHIP,

    Challenges in FEMA’s Flood Map Modernization Program

                          Page 10
                           FEMA continued to adhere to mapping goals and objectives outlined in its
                           1997 mapping plan, with the view that little had changed and the plan
                           remained viable. Specifically, FEMA’s strategy was to (1) update flood data,
                           (2) refit topographic data, and (3) digitize paper maps as much as possible and
                           refine those digitized maps at a later date to ensure accuracy. In contrast, as
                           discussed above, stakeholders called for more than mere digitization. They
                           wanted full funding and detailed plans for creating the most accurate maps
                           possible without delay to address their evolving mapping requirements and
                           priorities in high-risk floodplain areas.

                           The Association of State Flood Plain Managers agreed that FEMA’s map
                           modernization approach as outlined in the MHIP is not adequate and should
                           be modified to address changing funding and flood hazard requirements since
                           the original 1997 plan. The association stated that a revised MHIP should
                           reflect new information and factors discovered under the initial years map
                           modernization. For example, the association said that floods are elevation-
                           related phenomena; mapping flood areas requires engineering analysis,
                           including hydrology and hydraulic studies, 8 to determine how high waterways
                           could potentially rise relative to their surrounding land areas. The association
                           said that FEMA must evaluate such new requirements to maximize resources
                           for conducting mapping studies. The association also said that modernizing
                           the nation’s flood maps to meet a new quality standard will take time and
                           should not be rushed. Attempting to map the entire nation with limited
                           funding in the five-year period outlined in the MHIP, they said, may result in
                           chaos.

                           MHIP Does Not Ensure Stakeholder Buy-in

                           The MHIP in its current form does not encourage stakeholder buy-in and
                           support for achieving FEMA’s map modernization goals. Because the MHIP
                           does not meet their sequencing or funding needs, stakeholders are discouraged
                           from taking an active role in the program. If FEMA continues with the MHIP
                           map modernization approach as outlined, states and communities may resist
                           adopting the resulting maps because they will not view them as accurate or
                           reliable to meet critical risk management needs. Merely digitizing maps,
                           states fear, may cause them to lose credibility within their communities.

                           For example, Massachusetts officials said that the limited MHIP funding and
                           digitization approach hinders the state from developing and maintaining
                           strong working relationships with its community mapping partners. Similarly,
                           New York officials said that the limited mapping approach might damage the
                           integrity of the national flood insurance program and perhaps the entire
                           community of floodplain managers. Without complete guidance on achieving
8
  Hydrology is the scientific study of the properties, distribution, and effects of water in the atmosphere, on the earth’s
surface, and in soil and rocks. Hydraulics is the physical science and technology of the static and dynamic behavior of
fluids.

                                 Challenges in FEMA’s Flood Map Modernization Program

                                                           Page 11
              and maintaining minimum quality standards in map production, stakeholders
              lack confidence in FEMA’s strategy for ensuring credible maps, too.

              Upon evaluating stakeholder comments on the MHIP, FEMA acknowledged
              that a number of specific flood mapping needs might not be addressed within
              current sequencing plans and funding levels. Nonetheless, FEMA officials
              cautioned that the states’ funding requirements and expectations to produce
              highly accurate maps all at once are not realistic, and that map refinement will
              have to be an ongoing process. FEMA reminded stakeholders that the MHIP
              schedules are flexible and that FEMA regions, which control the funding, can
              alter the sequence of mapping studies to meet their individual community
              needs. At the same time, however, FEMA stated that the agency is evaluating
              resources and will continue to work with states and communities to identify
              the most effective approach for meeting evolving stakeholder needs over the
              life cycle of flood maps.

Program Management Needs Improvement
              Office of Management and Budget Circular A-11 directs agencies to employ
              good management disciplines to ensure that programs achieve intended cost,
              schedule, and performance outcomes. FEMA has responsibility for
              monitoring the contractor’s map modernization activities. However, the
              agency has not effectively controlled costs and schedules to ensure that the
              contractor is accomplishing the overall program within established budgets
              and timeframes. Further, although FEMA has documented its performance
              management processes, the metrics used are not adequate to provide a
              complete assessment of contractor program management activities.
              Additionally, independent evaluations to ensure quality contractor processes
              and deliverables have not been adequate.

              Program Cost and Schedule Not Effectively Controlled

              FEMA oversight of the contractor’s project management and procurement
              activities has not been adequate to control the costs and schedule for the map
              modernization program. In addition, FEMA did not ensure effectively that
              the contractor had the authorizations necessary prior to purchasing IT
              resources on the agency’s behalf.

                     Project Management System Not Used Effectively

              FEMA has not effectively overseen contractor use of an earned value
              management system for monitoring progress in accomplishing the map
              modernization program. The earned value management system is an
              electronic tool that compares baselined map modernization schedules and
              costs against actual activities and expenditures, applying a formula and
              indicators for determining the ongoing “health” of the program. FEMA and

                  Challenges in FEMA’s Flood Map Modernization Program

                                        Page 12
the contractor jointly performed an integrated baseline review to ensure
complete understanding of the contract requirements and the contractor’s
proposed solutions. As required by the contract, the contractor implemented
the system at a cost of approximately $2.5 million.

However, FEMA’s use of the earned value management system has not been
effective because program task managers do not fully know how to use the
data generated by the system. FEMA managers generally received training in
earned value management; but, because they were not involved in the initial
baseline planning, a number of managers did not understand how the budgeted
costs and schedules for individual line items included in the contract task
order were developed. Due to their limited understanding, managers did not
use the earned value management information to the fullest extent possible.

For example, some managers believed that the earned value management
reports did not give them adequate information to assess program progress.
Others stated that they were unclear of the benefits of the information and
therefore did not use it at all. One FEMA manager did not understand how
the costs on an invoice related to the work that the contractor had performed
and therefore requested additional information. In response, the contractor
provided reports to show how the work performed translated into earned
value. The manager stated that such reports, coupled with including FEMA
managers in the baseline planning, will help with earned value management
processes for future task orders.

Due to a lack of detailed guidance, FEMA managers used the earned value
management information in inconsistent ways to carry out their oversight
responsibilities. For example, one official used an arbitrary 10 percent
variance from baselined costs and schedules to gauge whether tasks the
contractor had completed met acceptable levels. Another manager reported
that, without his knowledge, the contractor had added tasks and costs to his
contract area of oversight, distorting the original baseline against which to
assess work performed. Without guidance for using information generated by
the earned value management system, FEMA managers lack a consistent
means of evaluating contractor performance and ensuring that the benefits of
their investments in map modernization are realized.

Further, the contractor’s monthly reports to FEMA, which accompany the
earned value management information, lacked specificity. The reports
summarized program progress, contractor performance, cost and risk analysis,
and mitigation plans. However, the reports failed to capture key information,
such as delays experienced by the contractor in developing the Mapping
Information Platform (MIP)—a web based system for mapping and updating
flood maps—and the associated impact on the rest of the map modernization
program. In a March 8, 2005, letter FEMA requested that the contractor
improve the monthly reports by including the critical information needed to

    Challenges in FEMA’s Flood Map Modernization Program

                          Page 13
make informed decisions on adjusting the program approach to ensure
achievement of established goals and objectives.

       Monitoring of Contractor Spending

Initially, FEMA did not have adequate procedures in place to control the
contractor’s IT expenditures for map modernization. The contract requires
that FEMA compare each contractor invoice to program requirements,
budgets, and documented deliverables to determine whether the bill should be
paid. However, upon reviewing the contractor’s December 2004 earned value
management report, we identified a cost overrun of approximately $1.1
million for the program management line item in the contract. When
questioned in this regard, FEMA officials attributed some of the cost overrun
to contractor purchases of IT equipment that they had not pre-authorized.

To illustrate, one contractor purchase was for an improved administrative
system for managing map modernization program documentation. The
contractor had determined that the previous system was not cost effective to
maintain, even though a subcontractor had provided it free of charge for the
first year. The system costs and functionality limitations made continued use
of the system in subsequent years cumbersome. Therefore, the contractor
purchased another administrative system at a cost of approximately
$250,000—without adequate coordination with FEMA’s IT architecture
office. After learning about the purchase, FEMA managers requested that
their Applications and Analysis office review the procurement. Review
officials found that the contractor had purchased the system without an initial
check to ensure compliance with FEMA’s enterprise architecture. FEMA
reviewed the system to ensure compatibility and suitability, and subsequently
approved the purchase, even though it stretched an already limited map
modernization budget.

Decentralized responsibility for monitoring IT expenditures across the various
contract line items made such unauthorized purchases possible. For example,
FEMA officials responsible for overseeing contractor efforts to develop the
MIP stated that they were not responsible for monitoring IT procurements of
other contract line items and therefore could not ensure that all purchases met
FEMA approval. FEMA recently has taken steps to ensure that unauthorized
contractor purchases do not occur again in the future. Specifically, in
February 2005, FEMA and the contractor agreed on a new policy for
reviewing and authorizing IT procurements. The policy states that all requests
for procurement of IT hardware and software greater than $5,000 must be pre-
approved by FEMA’s Applications and Analysis office. In addition, the
policy states that all IT acquisitions must meet FEMA’s enterprise architecture
requirements. Since instituting the new policy, FEMA has disapproved
$305,000 in unauthorized contractor purchases.


    Challenges in FEMA’s Flood Map Modernization Program

                          Page 14
                          Performance Management Needs Improvement

                          FEMA has not provided the performance management and oversight needed
                          to ensure successful accomplishment of the map modernization program.
                          Although FEMA has documented its processes for evaluating program
                          performance, the performance measures in use are not adequate. Further,
                          independent assessments to ensure quality contractor processes and
                          deliverables have not been consistent or adequate.

                                  Performance Measures are Not Adequate

                          The Federal Acquisition Regulation requires that agencies institute effective
                          approaches for evaluating contractors’ execution of performance-based
                          contracts. 9 This includes outlining processes for measuring the effectiveness
                          of contractor services, deliverables, and work activities. As part of outlining
                          these processes, and in coordination with the federal agencies, contractors are
                          to develop several specific program management documents, such as
                          performance work statements, quality assurance surveillance plans, and
                          performance requirements summaries. In addition, the Federal Acquisition
                          Regulation calls for the establishment of meaningful measures to assess
                          contractor performance in executing specific tasks and activities and to
                          support management decisions and actions for sustained progress in achieving
                          contract objectives. Such measures help agency managers determine whether
                          and in what amount contractors should be awarded for work performed.

                          FEMA and the contractor have taken some first steps toward managing
                          performance of the map modernization contract. They have worked together
                          to document processes for evaluating contractor performance. For example,
                          in accordance with the performance work statement, FEMA and the contractor
                          have instituted a management system to assess contractor performance in
                          seven broad categories that typically drive a program’s success or failure:
                          leadership; product quality; program schedule; scope and risk management;
                          teamwork; and contract management. Further, the contractor has developed a
                          matrix that establishes metrics and outlines how contractor performance in
                          each of these seven categories is to be measured and scored each quarter.
                          Starting in September 2004, about six months after the contract was signed,
                          FEMA began using the matrix to assess contractor effectiveness in program
                          management and to determine the contractor award fee.

                          The measures for evaluating contractor performance as part of this process,
                          however, have not been adequate. FEMA and the contractor agreed upon 18
                          measures for evaluating the contractor’s effectiveness; of these, five measures
                          are related to program management. Further, of the five program

9
 Federal Acquisition Regulation, Part 37, General Services Administration, Department of Defense, and National
Aeronautics and Space Administration, March 2005.

                               Challenges in FEMA’s Flood Map Modernization Program

                                                      Page 15
                           management measures, four are event-based: they simply indicate contractor
                           compliance in developing a prescribed report or implementing a required
                           system. Only one measure was structured for evaluation based on a
                           comprehensive assessment of the contractor’s performance. The indicators
                           for scoring contractor performance in this one measurement area are very
                           narrowly focused and do not provide a sound basis for evaluating the
                           contractor’s overall program management accomplishments.

                           For example, FEMA based the contractor’s leadership performance on two
                           action items assigned to the contractor at an August 2004 map modernization
                           executive steering group meeting. Specifically, the contractor was tasked to
                           assess a model for developing the MHIP and review lessons learned from
                           DHS’ U.S. Visit Program to support development of the MHIP. 10 In
                           September 2004, the contractor received a maximum score for leadership,
                           based on completion of the two action items but no detailed analysis.
                           Similarly, the contractor completed two more action items assigned at a
                           subsequent executive steering group meeting the next month. Again, the
                           contractor received a maximum score for leadership, although contractor
                           actions dealt primarily with examining leadership issues and matters of
                           interest rather than actually demonstrating leadership ability. Such high
                           contractor scores were based on very narrow categories of performance and
                           did not consider the overall “health” of the program under the contractor’s
                           leadership. Also, the scores were in complete contradiction with a March
                           2005 letter in which FEMA discussed cost and schedule overruns and
                           criticized the contractor for poor leadership performance in the subsequent
                           months of managing the program.

                           A FEMA official questioned the agency’s approach to collecting, tracking,
                           and analyzing the data used to score contractor performance. The official said
                           that in a number of instances the measures appeared to be inaccurate. For
                           example, this official asked how, in the category of “product quality,” the
                           contractor could have achieved a high score for having no letters of map
                           changes returned for correction when mapping officials had already pointed
                           out mapping errors that needed to be addressed. This official noted that no
                           one is quite sure how such information is tracked and documented so there is
                           no reliable means of verifying the performance measures and scores assigned.

                           Further, the official said that some measures appear to have been implemented
                           incorrectly. For instance, FEMA was not supposed to assess contract
                           management activities until the end of task order one, which was comprised of
                           requests for contract modifications and indefinite delivery/indefinite quantity
                           contracts. However, FEMA assessed contract management performance
                           halfway through execution of task order one and gave the contractor a

10
  US-Visit is a system that allows the United States to determine the eligibility of foreign travelers to enter the United
States.

                                 Challenges in FEMA’s Flood Map Modernization Program

                                                          Page 16
“minimum” score, where there should have been no score at all. Similarly,
the official said that the contractor assigned the maximum score to the scope
management category in the third quarter of the contract; however, FEMA’s
assessment reduced the score to zero because of no activity. The official
concluded that potentially scoring contractor performance before services
have been completed or in areas of no activity results in distorted performance
assessments. In turn, contractor fees awarded on the basis of such distorted
performance assessments may be too high, constituting an inappropriate use
of government funds. To address this issue, the official has requested
improved guidance for evaluating the contractor’s program management
performance.

       Quality Assurance Activities Have Lagged

The Federal Acquisition Regulation, part 37, requires that agencies conduct
quality assurance reviews or inspections to ensure that contractors are meeting
quality and quantity requirements of performance-based contracts. However,
FEMA does not have all of the necessary mechanisms in place to adequately
review work performed under its map modernization contract. For example,
in accordance with the terms of the contract in 2004, the contractor
established an assessment office independent of its program office to analyze
map modernization activities and test new technologies introduced.

However, due to limited resources, assessment office efforts have focused
only on testing the web-based MIP system. A subcontractor in the assessment
office stated that contract negotiations had resulted in a small budget of
approximately $700,000 and 2.5 testing staff for the office—just enough
resources to conduct MIP testing. As a result, the assessment office was not
conducting quality reviews of other contractor deliverables and work products
that needed them. For example, the assessment office did not evaluate any
additional technologies, apart from those already used that might assist
mapping partners in improving processes for producing flood data and maps.

Until we inquired, a FEMA manager responsible for overseeing the
assessment office was not aware that these other quality assessments were not
being performed. Moreover, until we presented copies, this manager was not
aware that the contractor had prepared quarterly letters to FEMA, which were
never sent, advising that the agency had not requested any quality inspections
beyond the MIP testing. For example, in a September 2004 letter, the
contractor advised FEMA that it had established policies and procedures and
developed a plan and schedule for conducting inspections in the latter half of
the contract period, from March 2004 to March 2005. As of December 2004,
however, FEMA had not requested that such audits be performed.

Further, FEMA was slow in hiring another contractor, separate from the
assessment office, to perform independent quality reviews during the critical

    Challenges in FEMA’s Flood Map Modernization Program

                          Page 17
               first months of the map modernization program. The Federal Acquisition
               Regulation, part 37, directs that agencies conduct reviews to provide
               assurance of the quality of contractor work performed. FEMA planned to
               have a systems engineering and technical assistance contractor assess map
               modernization products and services to help reduce the risk of program
               failure.

               However, FEMA did not succeed in bringing the contractor on board until
               September 2004—six months after the primary contractor began work on map
               modernization. In the interim, the primary contractor had been working at an
               aggressive pace to institute a number of new processes and technologies,
               including the earned value management system, a system development center,
               and the cooperating technical partner data-sharing program—all of which had
               not been assessed. After signing its contract with FEMA in September 2004,
               the systems engineering and technical assistance contractor’s quality review
               was limited to products that already had been delivered. Although FEMA was
               not satisfied with some of the primary contractor’s work products, the systems
               engineering and technical assistance contractor had no effective means after
               delivery to evaluate the quality of the products or the processes used to
               develop them. The systems engineering and technical assistance contractor
               did not gain the access needed to independently review the delivered products
               until March 2005.

Coordination Activities Are
Headed in the Right Direction
               FEMA is moving forward in its efforts to better partner and communicate with
               its mapping stakeholders. However, FEMA could take additional steps to
               maximize the benefits and resources possible through these relationships. For
               instance, although FEMA now works one-on-one with other agencies to
               coordinate mapping activities, FEMA has not instituted the policies,
               agreements, or information sharing mechanisms to effectively support these
               interagency working arrangements. Similarly, while FEMA is building more
               effective partnerships with state and local government entities, all mapping
               stakeholders at this level are not fully involved or aware of key map
               modernization objectives. Further, the call center responsible for addressing
               mapping inquiries does not always provide effective service or accurate
               information, compromising program credibility and potentially placing
               stakeholders and their property at risk. Addressing such collaboration and
               communications issues will be key to ensuring effective use of
               intergovernmental resources, stakeholder commitment, and ultimate success
               in meeting overall map modernization program goals.




                   Challenges in FEMA’s Flood Map Modernization Program

                                         Page 18
Progress Made in Coordinating with Other Federal Agencies

                FEMA has made significant progress in its outreach to the federal community,
                working with individual agencies and participating in a number of forums to
                consolidate resources, coordinate activities, and share information to support
                nationwide map modernization efforts. However, FEMA has not put in place
                all of the mechanisms needed to govern and support these interagency
                working relationships. For instance, during the first year of the map
                modernization contract, FEMA did not complete an overarching policy for
                coordinating geospatial data with federal mapping partners. Also, FEMA has
                not instituted the guidelines necessary to govern its working arrangements
                with individual agencies. As a result, FEMA may not be in the best position
                to achieve the cost savings and efficiencies possible through these
                collaborative arrangements. Last, FEMA is not effectively disseminating
                interagency mapping data so that all relevant stakeholders can align with the
                collective efforts of their nationwide mapping partners.

                Guidance Calls for Increased Federal Coordination

                By working together, federal agencies can reduce costs and eliminate
                redundancy in managing geospatial data. According to DHS’ Geospatial
                Management Office, geospatial data identifies, depicts, and describes the
                geographic locations, boundaries, or characteristics of inhabitants and natural
                or constructed features on the earth.

                Over the past fifty years, the U.S. Government has issued a range of guidance
                to further federal coordination in collecting and using geospatial data.
                Specifically, Office of Management and Budget Circular A-16 encourages
                governmental agencies to collaborate on geospatial undertakings. The Office
                of Management and Budget revised the regulation in 1990 to establish the
                Federal Geographic Data Committee, and again in 2002 to reflect geographic
                IT systems enhancements. The Federal Geographic Data Committee is a 19-
                member interagency committee composed of representatives from the
                Executive Office of the President, cabinet agencies, and independent agencies.
                In 1994, Executive Order 12906 made the Federal Geographic Data
                Committee responsible for developing a National Spatial Data Infrastructure,
                which promotes systems interoperability and the pooling of geospatial data
                holdings among federal agencies and their partners. The National Spatial
                Data Infrastructure includes policies, standards, and procedures for
                organizations to cooperatively produce and share geographic data.
                Tremendous growth in geographic information system technologies in recent
                years has helped bring such requirements for coordination of geospatial data
                to the forefront.




                    Challenges in FEMA’s Flood Map Modernization Program

                                          Page 19
                          FEMA is Collaborating with Federal Stakeholders

                          FEMA recognizes the need to work with other federal agencies on geospatial
                          data activities and has included this requirement in its contract and plans for
                          modernizing flood maps. To this end, FEMA participates on the following
                          committees and programs focused on geospatial data coordination.

                          •   Federal Geographic Data Committee: FEMA representatives serve on a
                              Coordination Group of this committee, established by Office of
                              Management and Budget Circular A-16. FEMA’s guidelines and
                              specifications for flood mapping require adherence to Federal Geographic
                              Data Committee metadata and accuracy standards, which are incorporated
                              into contract costs.

                          •   Geospatial One-Stop Program: The Department of Interior manages this
                              intergovernmental project to support the President’s e-Government
                              Initiative. Geospatial One-Stop provides an internet portal through which
                              government entities and private citizens can access federal and other
                              geospatial data collections. The web portal also serves as a focal point for
                              identifying similar projects, promoting collaboration, and reducing
                              duplicate studies and use of geospatial data resources. Geospatial
                              One-Stop representatives work with the Federal Geographic Data
                              Committee to ensure that geospatial collection standards are defined and
                              maintained. FEMA plans to publish all its flood hazard data updates for
                              FY05 and FY06 to the Geospatial One-Stop portal.

                          •   National Digital Orthophoto Program: The National Digital Orthophoto
                              Program, chartered in 1993, is a “consortium of Federal agencies with the
                              purpose of developing and maintaining national orthoimagery coverage in
                              the public domain by establishing partnerships with Federal, State, local,
                              tribal, and private organizations.” 11 As part of this program, FEMA is
                              developing a registry for posting planned investments in elevation and
                              orthoimagery used on maps. Data from the registry will be pulled by the
                              Geospatial One-Stop portal and included on that site.

                          •   National Digital Elevation Program: FEMA is using the same registry
                              cited above to support the National Digital Elevation Program. Federal
                              agencies created this program as a central point for establishing
                              coordination policies, procedures, and standards for sharing elevation data
                              across federal, state, local, and private entities.

                          In addition, FEMA has had the opportunity to work with agencies on a one-
                          on-one basis. For example, FEMA coordinates with the National Oceanic and

11
  Digital orthophotography refers to uniform-scale photographs of landmasses, which can be used to measure distance
and can sometimes serve as base maps.

                               Challenges in FEMA’s Flood Map Modernization Program

                                                       Page 20
Atmospheric Administration’s National Geodetic Survey to move its mapping
work from the former National Geodetic Vertical Data standard of 1929 to the
new, federally-mandated North American Vertical Datum standard of 1988.
The new standard allows for greater accuracy and systems interoperability in
flood mapping products. FEMA is also working closely with the U.S. Army
Corps of Engineers and the U.S. Census Bureau to identify opportunities to
coordinate on existing geospatial data holdings as well as upcoming projects.

Additional Steps Needed to Support Collaboration Activities

While FEMA is making progress in coordinating with and using the
capabilities and data sets of other federal agencies, several challenges remain
to full and seamless information sharing. For example, FEMA has not yet
finalized its overarching policy for coordinating geospatial data with its
mapping partners. FEMA representatives stated that they started to draft the
policy prior to awarding the contract to the primary contractor. The contractor
was to complete work on the policy and resubmit it for agency approval.
However, after the contractor submitted the draft to FEMA, the agency
responded with a discrepancy report indicating that the contractor’s product
was “significantly worse than the original draft.” FEMA directed the
contractor to revisit the document to better develop procedures for working
with federal and state entities and ensuring compliance with all relevant
regulations and policies. As of July 2005, FEMA’s data coordination policy
had yet to be finalized.

In the absence of a final data coordination policy, mapping partners lack
formal guidance for mapping data collection and use, and may inadvertently
create products of little value to other federal agencies. The rework to correct
deficiencies with the mapping products may result in redundant cost and
effort. Additionally, as one FEMA representative stated, the agency’s delay in
releasing a finalized data policy compromises its credibility with mapping
stakeholders.

Additionally, FEMA has not put in place all of the guidelines needed to
govern specific interagency working arrangements. FEMA uses memoranda
of understanding to define roles and responsibilities in collaborating with
other federal agencies on flood mapping. FEMA has drafted such agreements
for working with both the U.S. Geological Survey and the National Geodetic
Survey; however, the documents have not yet been finalized.

When asked why the memoranda have not been completed, FEMA officials
said that confusing guidance has hindered efforts to put the documents in
place. As a DHS component, FEMA must adhere to the policies and
standards of the department’s Geospatial Management Office. The office,
established through provisions of the Intelligence Reform and Terrorist
Prevention Act of 2004, is responsible for establishing and maintaining

    Challenges in FEMA’s Flood Map Modernization Program

                          Page 21
                       appropriate relationships with federal, state, tribal, local, and private sector
                       organizations on geospatial management technology matters. 12 DHS
                       Management Directive 4030 defines the roles and responsibilities of the
                       office, stating that the office is to provide departmentwide leadership and
                       guidance to ensure proper coordination with other federal agencies and
                       compliance with all applicable laws. 13 By September 2007, the office is also
                       to provide oversight of all geospatial IT systems management, procurement,
                       security, and interoperability issues at DHS.

                       However, since the Geospatial Management Office was established, its
                       management has used a “do no harm” approach—leaving legacy agencies
                       within DHS, including FEMA and its map modernization program, to manage
                       as they deem appropriate. As a result, map modernization managers, unsure
                       whether they should act on their own authority or work through the Geospatial
                       Management Office, are waiting to take action to finalize the agreements.
                       Until the finalized agreements are in place, whether departmentwide or
                       agency-derived, there is no assurance that FEMA and other agencies will be in
                       accordance with one another. FEMA also might miss significant
                       opportunities for increased collaboration in map modernization efforts.

                       Further, although FEMA receives periodic updates regarding a central
                       repository for federal mapping information, the agency has not devised a
                       means of disseminating this information to the mapping partners that need it.
                       Specifically, the U.S. Census Bureau maintains the Topologically Integrated
                       Geographic Encoding and Referencing Enhancement Database, which
                       provides an inventory of mapping data, including contact information, web
                       addresses, agency names, and other related information. FEMA’s regional
                       offices and contractors rely upon such information to support their mapping
                       studies nationwide. However, FEMA is still working on a plan on how to get
                       the information out on a timely basis for nationwide reference. Where
                       regional offices and contractors do not obtain the updated information on
                       available data sets, they may perform unnecessary mapping studies, resulting
                       in redundant effort and resource expenditures. Further, communities
                       undertaking activities to identify mapping needs and the resources available to
                       fulfill them, may unknowingly exclude information that could have helped
                       produce more accurate maps.

Progress Made in Coordinating with State and Local Entities
                       As with the federal level, FEMA has taken steps to strengthen
                       communications and outreach to its state and local mapping partners.


12
 Intelligence Reform and Terrorism Prevention Act of 2004, Public Law 108-458, December 17, 2004.
13
 Geospatial Management Office, MD 4030, Department of Homeland Security Management Directive System,
November 12, 2004.

                            Challenges in FEMA’s Flood Map Modernization Program

                                                  Page 22
                          However, additional steps are still needed to effectively articulate map
                          modernization objectives and consistently support stakeholders at this level.

                          Steps Taken to Strengthen State and Local Partnerships

              In accordance with recommendations of both the Technical Mapping
              Advisory Council and the GAO, 14 FEMA is working to build constituent
              interest and support for modernizing flood maps by using a process that
              includes public education, outreach, communication, and establishment of
              partnerships with its state and local government stakeholders. FEMA’s
              strategy is to maximize the mapping resources and experience of these
              stakeholders. The MHIP outlines FEMA’s vision for such intergovernmental
              cooperation and coordination to achieve map modernization goals.
RTNERSHIPFFORTS
              As discussed in the MHIP, FEMA has established a Cooperating Technical
              Partner program to co-opt state and local participation in its map
              modernization program. Cooperating technical partners sign agreements with
              FEMA that clearly define objectives, standards, milestones, and quality
              controls for activities needed to develop or modernize mapping products. At
              the close of FY 2003, FEMA had 151 mapping partners. As of March 2005,
              the agency had approximately 208 partners, 193 of which have mapping
              agreements in place. In FY 2004, these partners collectively provided about
              $62 million leveraged dollars to support FEMA’s flood map modernization
              program. FEMA defines leveraged dollars as the products—field surveys and
              topographic data—and assistance that add quality to mapping products.

                          As the map modernization program continues to grow and expand, FEMA is
                          working to extend its technical partnership base and the program’s overall
                          reach. Specifically, FEMA is moving toward multi-jurisdictional cooperating
                          technical partner agreements, which consolidate the resources of smaller
                          mapping partners into larger cooperative agreements to ensure more unified,
                          seamless partnerships. The State of Georgia, Department of Natural
                          Resources, for example, has entered into a cooperative agreement with FEMA
                          to pool resources and coordinate mapping activities on a statewide basis
                          versus working with individual counties or municipalities. State officials cite
                          delegation of coordination responsibility to each state as a whole as one of the
                          greatest advantages of this type of agreement, because the states have better
                          relationships with individual counties than FEMA does. Multi-jurisdictional
                          cooperative technical partnerships also encourage integration of various
                          organizations, resulting in additional resources for flood mapping.

                          Further, cooperative agreements with several state and local level forums
                          bolster FEMA’s communication and outreach capabilities. For example, to
                          better communicate its map modernization vision and goals as well as to

14
     GAO-04-417, March 2004.

                               Challenges in FEMA’s Flood Map Modernization Program

                                                     Page 23
                           coordinate activities with stakeholders nationwide, FEMA sponsors annual
                           conferences of the Association of State Floodplain Managers and regularly
                           sends representatives to symposiums led by the National Association of Flood
                           and Stormwater Management Agencies. Also, FEMA has entered into a
                           cooperative agreement with the National States Geographic Information
                           Council. Under this agreement, FEMA coordinates with the Council to
                           identify and leverage high-resolution light detection and ranging technology
                           and orthophotography available throughout the nation.15 These are among the
                           most costly of all mapping technologies, as the cost to obtain light detection
                           and ranging technology to map the entire nation exceeds $1.7 billion, while
                           the cost for orthophotography approximates $880 million. By working with
                           the Council, FEMA can significantly streamline efforts and reduce costs to
                           produce mapping products.

                           Written materials supplement FEMA’s communications with state and local
                           entities. For instance, as discussed above, the MHIP supports outreach efforts
                           and also serves as a guide for stakeholder planning, scheduling, and use of
                           resources in map modernization. Further, FEMA provides standard operating
                           procedures for the regional offices and the contractors that support them.
                           Though initially some contracting staff reported difficulties working with their
                           regional office counterparts, FEMA has taken steps to improve these working
                           relationships. For example, FEMA has established agreements in each of its
                           ten regions, outlining specific responsibilities of the regional offices versus
                           those of the contractors. Additionally, the contractors now participate in bi-
                           weekly conference calls with their respective regional offices to discuss
                           concerns and provide progress reports on mapping activities.

                           Room For Communication Improvement Exists

                           While FEMA continues to make great strides in its partnership-building and
                           outreach efforts, several challenges remain. Stakeholders do not fully
                           understand the goals, objectives, and standards that must be adhered to in map
                           modernization. Further, the contractor’s call center is not functioning as
                           effectively as it could to support mapping stakeholders.

                                    Map Modernization End Goals Not Effectively Communicated

                           As discussed above, the constrained funding and schedules for conducting
                           mapping studies, as outlined in the MHIP, have led to the perception among
                           stakeholders that instead of updating and computerizing mapping products to
                           ensure accuracy, FEMA is simply digitizing outdated paper maps. When we
                           asked the map modernization program manager about the digitization issue,
                           this official said that such beliefs are not entirely accurate. While the MHIP

15
  Light detection and ranging technology identifies distant objects and analyzes pulsed laser light reflected from their
surfaces to determine their position, velocity, or other characteristics.

                                Challenges in FEMA’s Flood Map Modernization Program

                                                          Page 24
                          may not effectively communicate the full strategy, FEMA officials concede
                          that FEMA is not redoing floodplain studies for the entire nation. Re-studies,
                          they said, are costly and the program does not have enough money to re-map
                          the entire nation. Officials emphasized, however, that bad information would
                          not simply be digitized. Rather, in most cases the agency is using
                          “redelineation”—a process involving the redrawing of floodplain boundaries
                          using more detailed or current topographical information and existing flood
                          elevations. While redelineation does not generally result in significantly
                          updated flood elevations, FEMA officials believe that it is a good first step.

                          The FEMA program manager acknowledged that misperceptions are the result
                          of a lack of effective communication and outreach from headquarters and
                          regional offices to stakeholders. This FEMA manager acknowledged that the
                          program must work to improve communication strategies, adding that FEMA
                          and the contractor could have done a better job early on to coordinate outreach
                          activities.

                          Similarly, FEMA’s communication and outreach to stakeholders regarding
                          elevation data standards need improvement. In 1993, the Congress mandated
                          the North American Vertical Datum of 1988 (NAVD 88) as the official
                          standard for the federal government to use to measure surface contours and
                          base flood elevations, identifying which properties and locations are in flood
                          zones and which are not. 16 However, FEMA is not requiring that its mapping
                          partners use this standard when converting their mapping products from paper
                          to digital format. In fact, FEMA program officials recently provided an
                          update on map modernization status showing that only 22 percent of all 214
                          mapping studies identified had been performed in NAVD 88, while the
                          remaining 78 percent remained in the former National Geodetic Vertical
                          Datum of 1929 (NGVD 29) standard.

                          As mentioned earlier, FEMA has successfully coordinated use of the newer
                          elevation standard at the federal level. One particular community, Fort
                          Collins, Colorado, decided to change from the older datum after FEMA and
                          the National Geodetic Survey reached out to inform it of the many issues
                          facing the old datum. In general, however, FEMA’s regional offices have
                          placed limited focus on communicating to individual communities the
                          importance of converting to the new standard. Consequently, at the regional
                          level, a number of communities are opting to remain in NGVD 29 because it
                          is less costly to do so.

                          While the costs of converting to the newer elevation standard may seem
                          prohibitive to some communities, there are also significant benefits that
                          should not be overlooked. These benefits include greater accuracy in mapping

16
  The Federal Register (Vol. 58, No. 120, page 34245, June 24, 1993) affirmed NAVD 88 as the official vertical datum
standard for the United States.

                               Challenges in FEMA’s Flood Map Modernization Program

                                                       Page 25
studies and comparability of layers (specifically, flood layers as they relate to
other multi-hazard layers). Conversely, there are significant drawbacks to
communities remaining in the older elevation standard. For example,
according to an official with the National Geodetic Survey, NGVD 29 is not
compatible with new global positioning systems currently used to specify map
layers. Systems using the old NGVD 29 standard likely will not be
technically supported in the coming years. More importantly, mapping
products that blend the two data formats result in miscalculated base flood
elevations. Without accurate base flood elevation data, properties may be
incorrectly located outside of flood zones, placing both the properties and
their residents at risk. Stakeholders who have been well informed of the
benefits of the new standard and the drawbacks of the old are more likely to
opt for conversion, as in the case of Fort Collins, Colorado.

       Non-Cooperating Technical Partners Overlooked

In addition to the need for defined modernization goals and adherence to the
national elevation standard, we are concerned about the level of
communication offered to non-cooperating technical partners. Less advanced
communities may simply be unaware of FEMA’s map modernization efforts.
For example, two industry officials stated that FEMA regions, while playing a
greater role in map modernization than in the past, generally hire contractors
to perform modeling and other mapping activities. They stated that these
contractors, who serve primarily as engineers, generally are not known for
outreach, often leaving communities uninformed of map modernization
efforts.

One county that we visited reported having “very little involvement with the
map modernization program,” even though the county was listed in the MHIP
as a mapping project for FY 2003 and FEMA was already in the process of
completing work on the county’s flood maps. During our visit, however, we
found that the county, which had been using the same paper maps since 1981,
was unaware of FEMA’s map modernization efforts on its behalf. When
questioned about the lack of information provided to the county, FEMA
representatives stated that the previous mapping contract used to produce the
countywide platform, coupled with intense pressure to scope and award new
FY 2004 map modernization project dollars, resulted in ineffective regional
office tracking and communication with the county.

After being informed of the oversight, FEMA quickly reengaged with this
particular county, meeting with county officials and other affected
communities in the area in December 2004. Additionally, FEMA delayed
issuance of the preliminary flood map for the county in order to accommodate
and potentially incorporate any additional data that the county or its
incorporated communities might provide. The end result is an informed
community with significant time to include the necessary letters of map

    Challenges in FEMA’s Flood Map Modernization Program

                          Page 26
change and other mapping data for FEMA’s consideration. Although FEMA
deems this an isolated incident, if we had not identified the oversight, new
mapping data would not have been included in the county’s final mapping
product, possibly compromising data integrity and resulting in a map that
inaccurately depicts flood zones.

       Call Center Operations are Ineffective

Effectiveness of service provided by FEMA’s Map Assistance Center—
known as the call center—is another area where improvement is warranted.
The call center, designed to provide flood mapping information and assistance
to the public, is charged with answering telephone inquiries on a variety of
issues such as letters of map change, document order forms, FEMA
publications, and frequently asked questions. The call center logs
approximately 9,000 calls per month. According to FEMA brochures and
communication materials, the call center will provide support to MIP web site
users in the future, too.

The call center is an integral component of FEMA’s map modernization
program. However, the agency has encountered problems with the center
since transitioning from the contractor formerly responsible for its operations.
The new contractor succeeded in establishing the call center and making it
fully operational two days in advance of the deadline. But, after closely
monitoring call center performance over a number of months, FEMA
determined that the center was not meeting its goals of providing effective
service to callers.

Specifically, as part of its monitoring process, FEMA representatives
randomly selected calls for review each day to determine whether responders
were accurately and effectively providing information. Two days in a row, a
FEMA representative found mistakes in all calls reviewed. In one instance, a
call center operator took nearly eight minutes to respond to a caller, ultimately
providing an incorrect map date. In another instance, a responder made no
attempt to identify or provide useful details to an inquirer about a letter of map
change. In a third case, a respondent thoroughly confused and frustrated a
caller. When the caller voiced his frustration at the conclusion of the call, the
respondent did not offer further assistance.

In discussions with us, map modernization program officials speculated that
problems experienced with the call center were likely the result of
inexperience at three different levels. They stated that the contractor,
unfamiliar with the needs of a mapping assistance call center, may have
overlooked the general needs of the facility. They said that inexperience on
the part of the call center operators—college students who knew little about
flood mapping—led them to provide inaccurate information to callers.
Further, the performance-based contracting vehicle allowed FEMA only to

    Challenges in FEMA’s Flood Map Modernization Program

                          Page 27
                          dictate the desired product (that is, the call center), but not the necessarily the
                          processes or procedures for achieving the end result.

                          FEMA allowed the contractor until January 2005 to improve call center
                          operations. The contractor, in turn, hired a third party organization that
                          evaluated call center service and provided a report to FEMA in February
                          2005. First, the report confirmed that the center’s operators were providing
                          inaccurate information (estimated as high as 30 percent) to callers—a practice
                          which could potentially place individuals at risk if they were not well-
                          informed about mapping policies and regulations, flood zones, or the need for
                          flood insurance. Second, the report found that the center’s voice recognition
                          system was less than user-friendly, frustrating and alienating callers and
                          compromising commitment to mapping program objectives.

                          As a result of the report, the contractor outlined steps to reorganize and
                          improve center operations, including simplifying the voice recognition system
                          and allowing callers to press the “zero” button at any time to access a live
                          operator. Additionally, the contractor plans to move “tier 1” call center
                          operators to the contractor’s headquarters facility in Alexandria, Virginia,
                          where operators can obtain better training and assistance by subject matter
                          experts. The contractor will implement a new e-mail tracking system to better
                          support center operators. Finally, the contractor will continue monitoring
                          calls to ensure sustained center performance in providing timely and accurate
                          service.

Mapping Platform and Tools Are At Risk
                          As part of its map modernization efforts, FEMA is developing a web-based
                          technology platform that will support the management, extraction, sharing,
                          and efficient production of digital maps. However, progress has been limited
                          because the system development approach is not well executed. Specifically,
                          a lack of clear contractor expectations, underestimation of the scope and
                          complexity of the project, an overly aggressive development schedule, poorly
                          defined system requirements, and an ineffective system development
                          approach have led to significant development and implementation delays as
                          well as cost overruns. As a result, the mapping platform may not achieve the
                          functionality and cost savings anticipated.

Expectations for Mapping Information Platform
                          The MIP—a premier, web-based, data collection and delivery system—is a
                          key component of FEMA’s map modernization program. 17 FEMA is
                          investing over $30 million to develop and implement the system, which is

17
  FEMA defines a premier system as a state-of-the art, interoperable, continuously evolving, living, dynamic, and
integrated system.

                               Challenges in FEMA’s Flood Map Modernization Program

                                                        Page 28
                           intended to facilitate the management, sharing, and production of digital
                           mapping data. FEMA expects that the new system will achieve its goal of
                           reducing the time it takes to produce new digital flood insurance rate maps.
                           Also, the MIP is to provide reliable flood and multi-hazard data to support
                           stakeholders—from federal and state mapping partners to individual
                           homeowners—in their risk management decisionmaking. Because the system
                           will be available through the internet, users will be able to quickly access the
                           information needed and take appropriate actions to reduce vulnerability to
                           damage or loss resulting from potential natural disasters.




                           Figure 4: Mapping Information Platform

                           The MIP will feature a number of technology components that will assist with
                           map modernization project management. Specifically, the MIP will apply
                           leading industry practices by including a project tracking application to help
                           managers document and monitor activities, schedules, budgets, and
                           expenditures for mapping studies and revisions. The MIP also will include a
                           digital “dashboard”—another project management tool—for monitoring
                           mapping study and digitization processes from inception to completion. The
                           digital dashboard uses a green-yellow-red coding scheme to indicate the status
                           of an initiative and automatically notifies the appropriate managers when
                           studies are off track. 18 Further, the MIP will host several software tools to
                           assist FEMA partners and mapping contractors in producing and editing
                           digital flood map panels. The MIP will include online user training for each
                           component of the overall mapping platform. FEMA has set out specific time
                           frames for delivery of the MIP. The performance work statement for one of
                           the map modernization contracts, signed in March 2004, requires that the
                           contractor deliver several major components of the MIP in three releases over
                           a one-year period, as follows:




18
   In this color coding scheme, green indicates that the study is proceeding according to plans, yellow indicates schedule
slippage or other issues regarding product delivery, and red means that the study is in jeopardy and unlikely to achieve
objectives.

                                Challenges in FEMA’s Flood Map Modernization Program

                                                         Page 29
                •   Release 1: By June 2004, consolidate existing digital flood map
                    repositories and establish the MIP on the internet along with capability for
                    users to access and view flood maps and other geospatial information.

                •   Release 2: By September 2004, provide FEMA with the digital dashboard
                    and other tools for tracking progress regarding mapping studies and letters
                    of map changes. Additionally, the contractor was to provide through the
                    MIP several highly specialized tools and technologies to support map
                    development: the Watershed Information System and Digital Flood
                    Insurance Rate Map Production Tools.

                •   Release 3: By March 2005, provide additional capabilities for more
                    complex mapping activities, such as data modeling, storing the
                    intermediate data used to create flood maps, providing data security, and
                    ensuring mapping data quality.

Platform Deployment Has Experienced Schedule and Cost Overruns
                While some progress has been made in developing the MIP and the map
                production tools, the contractor has not met several deadlines and the platform
                is significantly over budget. Specifically, although the contractor met the 90-
                day time frame for delivering release 1 of the MIP, current estimates indicate
                that completion of release 2 will not be deployed fully until late July 2005—
                about 10 months behind the originally scheduled date of September 2004.
                The delays began after the contractor identified the unexpected need to
                provide additional project tracking capabilities to release 2 deliverables to
                better meet FEMA’s requirements. In order to provide the additional
                capabilities without delaying delivery of the mapping tools, the contractor in
                October 2004 suggested dividing release 2 into sections: release 2.1 would
                launch the two mapping tool applications, while release 2.2 would deploy the
                management tracking tools. FEMA concurred with this proposal.

                However, this newly revised release 2 strategy did not work as planned. In
                November 2004, when the contractor provided the mapping tools—the
                Watershed Information System and the Digital Flood Insurance Rate Map
                software—comprising release 2.1, FEMA rejected the deliverables. FEMA
                contract managers stated that the tools did not satisfy the requirements
                outlined in the performance work statement. For example, they said that the
                release did not include the full suite of Digital Flood Insurance Rate Map
                tools. The deployment plan also did not identify the main audiences for the
                tools, how the tools should be used, or how users would be trained and
                supported. In addition, the contractor had not provided performance test
                results for the Watershed Information System tool.

                To further adjust the release 2 delivery schedule and provide users with at
                least one of the tools with which to begin mapping studies, FEMA officials

                    Challenges in FEMA’s Flood Map Modernization Program

                                          Page 30
                decided to deploy the Watershed Information System, contingent upon
                acceptable system performance testing. Accordingly, the contractor further
                delineated the delivery schedule, identifying the Watershed Information
                System as release 2.1 and the Digital Flood Insurance Rate Map production
                tools as release 2.1.1. After much discussion and several contract
                modifications, the contractor successfully launched the Watershed
                Management Tool in January 2005 and FEMA approved the Digital Flood
                Insurance Rate Map production tools in May 2005. FEMA expected the
                contractor to deliver MIP release 2.2 and the project management tracking
                tools, beginning in June-July 2005.

                Because they build upon MIP release 2.2, the subsequent deliverables for
                release 3 will be delayed, too. Originally scheduled for March 2005, release 3
                now is not expected until late September 2005. Although the contractor
                provided the requirements document for release 3 to FEMA in February 2005,
                FEMA rejected the document, stating that it did not include sufficient detail.
                For example, a FEMA official who participated in Joint Application
                Development sessions recalled discussing with the contractor functions to
                include in release 3, such as storing and validating the data compiled from
                mapping studies. The FEMA official reviewed the contractor’s requirements
                documentation, but noted that such details had not been included. FEMA
                accepted the requirements in May 2005 after the contractor made the
                necessary changes. Nonetheless, due to the repeated revisions to the
                deliverables, release 3 will be about six months behind schedule.

                These schedule delays have had an adverse impact on the cost to produce the
                MIP. The original budgeted cost to complete the MIP was $27.7 million.
                However, as of April 2005, FEMA had already spent $32.1 million to acquire
                release 1 and parts of the subsequent releases. As of May 2005, FEMA was
                still waiting for the contractor to provide an estimate of the cost to complete
                releases 2.2 and 3. One official estimated that the total cost to complete the
                MIP could range from $17 to $20 million. If such an estimate holds true, the
                total project cost could exceed $52 million—approximately $24 million over
                budget.

IT Approach Not Well Coordinated
                MIP schedule and cost overruns may be attributed to a number of issues that
                FEMA has not managed effectively. These issues include unclear contractor
                expectations, an overly aggressive system development schedule,
                underestimation of the project scope and complexity, inadequate system
                requirements definition, and an ineffective systems development approach.




                    Challenges in FEMA’s Flood Map Modernization Program

                                          Page 31
                          Contractor Expectations Not Well Defined

                          Office of Management and Budget guidance for performance-based
                          contracting states that performance work statements should be written using
                          clear and precise wording and task-oriented statements. 19 However, FEMA’s
                          agreement with the contractor on MIP development plans and expectations
                          was unclear, contributing to the schedule and cost overruns discussed above.

                          For example, the performance work statement for developing the MIP
                          contains such vague language that FEMA and the contractor each interpret it
                          differently. In response to FEMA’s statement of objectives concerning map
                          modernization, the contractor developed the performance work statement,
                          describing services to be performed under task order one of the contract.
                          However, the work statement includes vague terms, such as “thin-thread” and
                          “thick-thread,” referring to the level of capability that the contractor planned
                          to provide in the various MIP releases. Loosely defined, “thin-thread”
                          implied less capability while “thick-thread” meant more robust capability.
                          The work statement does not define the terms, allowing the contractor
                          considerable latitude as to what to deliver, and creating the possibility that the
                          contractor’s work would not satisfy FEMA’s expectations. Such a
                          discrepancy occurred when the contractor provided FEMA with a description
                          of the functionality that would be included in MIP releases 2 and 3.

                          Specifically, in September 2004, FEMA learned that the contractor had not
                          included in MIP development the ability to track completion of mapping
                          studies on a basin-wide basis. By congressional mandate, FEMA is required
                          to study an entire geographical area drained by a river and its tributaries;
                          however, the contractor had planned to track study progress on a larger
                          countywide basis instead. After identifying this deficiency, FEMA reminded
                          the contractor that, according to the performance work statement, MIP
                          functionality was supposed to be similar to that of the Monitoring Information
                          on Contracted Studies System, its predecessor, which could track mapping
                          studies by basin. In reply, the contractor asserted that basin-wide studies were
                          not within the scope of MIP release 2 and 3 and that such “thick-thread”
                          capability had not been envisioned for this phase of MIP development.
                          FEMA continued to disagree. Ultimately, in October 2004, the contractor
                          agreed to include the capability for tracking basin-wide studies in MIP
                          development, but at additional time and cost.

                          In November 2004, FEMA identified another misinterpretation of the
                          performance work statement requirements when the contractor attempted to
                          deliver web-based tools for producing digital maps. In this instance, FEMA
                          rejected the delivery, stating that the contractor had not provided the full suite

19
  A Guide to Best Practices for Performance-Based Service Contracting (Final Edition), Office of Federal Procurement
Policy, Office of Management and Budget, October 1998.

                               Challenges in FEMA’s Flood Map Modernization Program

                                                       Page 32
of tools needed for the 30 or more steps required to complete a digital flood
insurance rate map. In response, the contractor claimed that the initial
delivery was never intended to include all of the tools for completing all steps
in the map production process. Further, the contractor stated that its contract
with FEMA did not include adjustments to reflect new delineations in MIP
release 2 development. Ultimately, the contractor agreed to provide the full
suite of tools, but again at additional cost and with added time for delivery.

MIP Development Scope and Complexity Underestimated

Despite federal requirements for clear and realistic expectations in
performance-based contracting, the contractor underestimated the scope and
complexity of MIP development. Specifically, early in the MIP development
process, the contractor encountered a number of unanticipated technical
difficulties that resulted in delays in starting work on MIP release 2. The
contractor summarized these difficulties in an August 2004 letter to FEMA,
outlining problems in improving map server scalability to provide additional
layers of data on the MIP portal. The contractor had to reallocate MIP
development team resources to address this issue.

In addition, while conducting infrastructure prototyping, the contractor
identified technical integration issues among several of the middleware
software products. The contractor noted that the system architecture had to be
changed to accommodate differences between business workflow and portal
software requirements. The architectural change required additional time to
integrate the middleware software products.

Further, the contractor had to expend considerable time and resources to
understand the mapping study process as a prelude to developing functional
requirements for the MIP software. In examining this business process, the
contractor found interdependencies between two contract line items: IT and
data management and flood engineering and mapping. Time to fully
understand and map out these interdependencies slowed development of the
functional requirements and extended the MIP development schedule.

According to FEMA officials, they since have instituted processes to provide
improved oversight and responsiveness to resolve scope and technical issues.
For example, the contractor provides FEMA with a detailed weekly briefing
on the status of the MIP. This briefing describes areas of risk and is a forum
to discuss scope questions and uncertainties. The meetings also use detailed
schedule and resource plans to ensure that the program is on schedule and
within budget. If scope issues are raised that cannot be resolved within these
constraints, FEMA will use change control procedures it has instituted and
modify the program scope, budget, and schedule accordingly. Also, FEMA’s
independent quality control reviewer now is involved in daily status meetings
with the contractor to review processes and raise issues for FEMA’s

    Challenges in FEMA’s Flood Map Modernization Program

                          Page 33
resolution. Additionally, an Engineering Review Board now convenes every
two weeks to review software patches and changes in the production
environments. This formal review process helps ensure that changes to the
system are reviewed, recorded, and approved by cross-functional FEMA
representatives, such as engineering, mapping, and IT officials.

Aggressive MIP Development Schedule

The contractor’s proposal to develop the MIP software within one year was
ambitious as well, leaving little room to accommodate unexpected delays.
Specifically, in conjunction with the technical problems discussed above, the
contractor experienced difficulties in staffing the system engineering and user
interface teams. These efforts took longer than expected, delaying the start of
system architectural and design activities and pushing the product delivery
schedule out beyond the original September 2004 deadline.

In efforts to meet the deadline, the contractor began writing MIP software
code and analyzing system requirements concurrently, instead of sequentially
in accordance with standard practice. Nonetheless, the contractor’s delivery
of the completed software code for MIP release 2 in December 2004 was still
late. After FEMA realized that the system did not include the necessary
functionality—possibly due to the incomplete requirements analysis—the
contractor had to expend additional time and money to correct the software
code. This pattern of system development continued for release 3 as well.
Although FEMA did not formally approve the requirements document for
release 3 until May 2005, by that time the contractor had already completed
90 percent of the program code development.

A FEMA representative questioned how the contractor could be developing
MIP release 3 when release 2.2 upon which it was to build had not yet been
completed. Such code development prior to requirements agreement, this
official reasoned, poses the risk of the system not meeting user or functional
needs. When this happens, significant recoding may be required, leading to
additional costs and delays.

MIP Requirements Not Well Defined

Office of Management and Budget Circular A-11 directs agencies to reduce
project risk by involving users in the design of IT assets. However, at the start
of the contract in March 2004, FEMA and the contractor did not coordinate
effectively to identify user and technical requirements for the MIP. Several
FEMA officials stated that there was little communication between FEMA
and the contractor on these issues during an initial system development
discussion. The contractor had already begun work to develop the system
prior to the meeting and therefore had not adequately considered
requirements. By the time that FEMA and the contractor signed off on the

    Challenges in FEMA’s Flood Map Modernization Program

                          Page 34
                          requirements in January 2005, the contractor had already completed the
                          system development. Release 3 requirements initially lacked detail, too;
                          FEMA and the contractor have worked closely to try to resolve these issues.

                          In addition to this initial lack of communication, FEMA’s quality control
                          contractor found that the process that the contractor used to document
                          requirements was inadequate. Best practices in requirements management
                          include providing a requirements baseline, traceability matrix, and effective
                          change controls. In line with these practices, a requirements management
                          plan developed by the MIP contractor discusses the links between user needs
                          and system capabilities, along with processes for configuration management
                          throughout the software development effort. 20 The plan describes the various
                          types of user and technical requirements, their respective features, what
                          should be documented, and how this information should be used to manage
                          requirements, too. Although the contractor considered this plan an internal
                          work product and not part of any deliverable to FEMA, the contractor posted
                          the plan to an electronic bulletin board, making it available for review by
                          FEMA’s quality control contractor.

                          The quality control contractor reviewed the MIP requirements management
                          plan and found that, while the plan lists activities essential to requirements
                          management, it lacks specificity. For example, the plan does not reference a
                          documented requirements baseline and only superficially addresses issue
                          tracking—the process for resolving discrepancies. Further, change control
                          processes, policies, and procedures are not clearly outlined. There is no
                          mention in the plan of the need for FEMA to approve the requirements
                          identified by the contractor responsible for developing the MIP. The quality
                          control contractor consequently made ten recommendations for improving the
                          requirements process. FEMA officials said that they have shared these
                          findings and recommendations with the MIP developer.

                          System Development Methodology Not Applied

                          Leading organizations use standard methodologies for systems development.
                          Likewise, the contractor’s performance work statement notes that
                          development of each MIP release should follow Software Engineering
                          Institute Capability Maturity Model guidelines, which require thorough
                          system documentation, review at each phase of the system life cycle, and
                          testing by the developer and independent verifiers prior to product delivery.
                          Ultimately, the final product is to be subject to acceptance testing to ensure
                          that all user and functional requirements are met.

                          However, FEMA officials were concerned that the contractor did not follow
                          such guidelines in providing mapping tools for the MIP. Specifically, based

20
     FEMA MIP Requirements Management Plan, Version 8, January 2005.

                               Challenges in FEMA’s Flood Map Modernization Program

                                                     Page 35
                           on a review of the contractor’s assessment of MIP release 2.1, FEMA’s
                           quality control contractor affirmed that capability maturity model processes
                           had not been employed at each stage of the life cycle in developing the
                           mapping tools. 21 The quality control contractor said that testing against
                           established requirements for release 2.1 had not been not adequately
                           performed or documented; and, software code had been modified and moved
                           between the simulated test and production environments in the middle of
                           testing. Several significant defects found in the product upon final user
                           acceptance testing confirmed that the developer’s initial tests had been
                           inadequate.

                           According to FEMA officials, the contractor has improved weekly status
                           reporting to the agency. The program schedules provided in the status reports
                           incorporate the system life-cycle development process and identify specific
                           tasks for each phase of the life-cycle, helping FEMA ensure that processes are
                           followed and tasks are not skipped. Additionally, FEMA has asked its quality
                           control contractor to take an active role in evaluating areas that need process
                           improvements. For example, the quality control contractor recently reviewed
                           and reported to FEMA on deficiencies in the contractor’s processes for
                           performance testing. In response, FEMA provided comments to the
                           contractor, which resulted in a change in performance testing processes that
                           ultimately is expected to improve system quality.

IT Systems May Not Meet Expectations
                           Given contractor delays and the many problems encountered, the MIP and
                           related mapping tools may not fulfill user expectations. Specifically, users in
                           some cases have acquired their own IT solutions and may not use the mapping
                           tools that FEMA is providing. Delays in implementing the MIP have resulted
                           in additional costs to maintain an interim system. In addition, FEMA has
                           deferred its plans to integrate legacy systems with the MIP until the agency
                           has the resources with which to do so.

                           Mapping Tools May Not Be Used

                           FEMA faces the risk that, despite spending approximately $4 million to
                           develop tools for creating digital flood maps, mapping contractors and
                           partners may choose not to use the tools. Because of contractor delays in
                           providing the full suite of tools through the MIP, a number of mapping
                           stakeholders have resorted to adopting other commercially available software
                           to perform the same functions. For example, a mapping official we spoke
                           with in California indicated that late release of the engineering tools had
                           impeded his organization’s ability to complete projects in a timely manner.
                           Rather than continuing to wait for FEMA’s tools, the contractor’s

21
     MIP Release 2.1 Engineering and Mapping Tools–Acceptance Results–DFIRM Tools,” November 5, 2004.

                               Challenges in FEMA’s Flood Map Modernization Program

                                                     Page 36
organization obtained its own tools. Further, another mapping contractor in
Georgia had spent a lot of resources to independently create mapping tools
and did not plan to use those provided by FEMA, especially since FEMA’s
tools will use an older version of geographic information system software than
the contractor uses. FEMA officials fear that it may take months before they
can determine the extent to which stakeholders will use their tools and
whether the agency’s investment to develop the tools is cost-effective.

A contractor official stated that use of FEMA’s tools is critical to the success
of the map modernization program because these tools will effectively
produce accurate flood maps, at lower cost, and in a standard manner. This
official stated that the agency consequently must place priority on instituting
incentives and highlighting the benefits of mapping stakeholders using the
FEMA tools rather than their own IT solutions. One benefit to using FEMA’s
tools is that they will save money, as the stakeholders will not be responsible
for purchasing and maintaining mapping tools on their own. Another
potential benefit is the reduced requirement for mapping contractors and
partners to manually enter mapping data into the MIP once the tools are fully
integrated.

Continued Reliance on Interim System

Delays in MIP deployment also have resulted in increased costs to continue to
operate an interim system for tracking mapping studies. Previously, FEMA
and its mapping partners used the web-based Monitoring Information on
Contracted Studies (MICS) system to record and track individual map
modernization project lifecycles nationwide. In January 2005, the contractor
created an interim system—commonly known as “son of MICS”—to prepare
the data in MICS for transfer to the MIP. The transition process was only
expected to take four to six weeks, during which time only the contractor’s
regional management center staff would be able to enter and update mapping
information. At that point, FEMA expected the data transfer to be completed,
and the MIP to be operational, by the end of February 2005.

However, due to delays in implementing the MIP, regional management
center staff are using the intermediary system much longer than originally
intended to track the status of ongoing mapping studies. MIP release 2.2 is
not expected to be fully operational until July 2005. Because mapping
partners do not have electronic access, FEMA must continue to pay a
contractor to update project tracking information in the intermediary system.
Specifically, the contractor must spend approximately $150,000 per month to
keep the management information up-to-date until release 2.2 of the MIP is
implemented. If the MIP had been ready in September 2004 as originally
scheduled, FEMA would not have had to pay these ongoing costs for activities
that the agency or its mapping partners might have been done for free.


    Challenges in FEMA’s Flood Map Modernization Program

                          Page 37
                     Legacy Systems Not Incorporated As Planned

                     Due to MIP cost overruns, key legacy systems which were to be transitioned
                     to the new mapping platform, will only be hyperlinked instead. Specifically,
                     the contractor’s performance work statement for the map modernization
                     program indicated that several legacy systems, including FEMA’s
                     Management Information System, MICS, and the Mapping Needs Update
                     Support System, would be transferred to the MIP for easier access and use by
                     mapping partners. Additionally, contractors stated in several technical
                     documents and e-mails that they also would include the FEMA Levee
                     Inventory System on the MIP.

                     However, due to a lack of time and money to reengineer the mapping needs
                     assessment processes to meet the MIP development deadline, FEMA agreed
                     that the contractor should only link several systems to the MIP instead of
                     integrating their entire databases with the new platform. Specifically, the
                     Mapping Needs Update Support System—a multi-functional, interactive web-
                     based software application—will not be fully included on the MIP and
                     therefore will not provide the functionality that stakeholders originally
                     expected. The system stores flood hazard mapping requirements and
                     generates ranking reports for communities based on the benefits and costs to
                     update maps. FEMA uses the system as a tool to prioritize communities for
                     updates to their National Flood Insurance Program’s Flood Insurance Rate
                     Maps based on state and regional needs. Because processes to assess
                     community needs are changing based on the MHIP and scoping activities and
                     because new processes for identifying community needs have been deferred,
                     FEMA officials reasoned that it would not be a good use of resources to
                     integrate Mapping Needs Update Support System data into the MIP at this
                     time and the hyperlink is a better option. FEMA officials anticipate that the
                     new processes should be completed this fiscal year.

                     Similarly, because of a lack of time and resources, the map modernization
                     contractor has decided not to integrate the FEMA Levee Inventory System
                     with the MIP. Nonetheless, because excess capacity exists on the MIP
                     platform, the contractor has agreed to host the FEMA Levee Inventory System
                     on the web site.
Recommendation
Recommendations
We recommend that the Acting Director, Mitigation Division:

                     1. Review and revise the Multi-Year Flood Hazard Identification Plan to
                        improve sequencing and funding for mapping studies in high-risk areas to
                        meet common goals and needs of the National Flood Insurance Program
                        and local floodplain managers; and, to provide end-state objectives and a


                         Challenges in FEMA’s Flood Map Modernization Program

                                               Page 38
                long-term strategy for producing and maintaining accurate flood maps
                nationwide.

             2. Develop guidelines to help ensure compliance with FEMA’s minimum
                standard for producing accurate and reliable flood insurance rate maps.

             3. Improve oversight of contractor program management by (a) providing
                guidance, additional training, and improved metrics for monitoring
                contractor performance; (b) documenting and ensuring compliance with
                procedures for reviewing and approving the contractor’s IT procurements;
                and, (c) providing the resources needed to conduct the quality assessments
                and independent quality assurance reviews for monitoring contractor
                deliverables and services.

             4. Direct that the map modernization program office work with the DHS
                Geospatial Management Office to develop information sharing agreements
                with other federal agencies and programs to reduce redundancies in the
                costs and resources used to carry out map modernization activities.

             5. Finalize and implement the coordination policy for data sharing—and
                develop and implement a means to disseminate available federal agency
                mapping data to stakeholders—thereby capitalizing on available resources
                for meeting program objectives.

             6. Clearly communicate to stakeholders the objectives, benefits, and
                alternative approaches to converting from the former National Geodetic
                Vertical Datum of 1929 to the official North American Vertical Datum of
                1988 to help ensure accuracy of modernized maps.

             7. Improve FEMA regional office outreach and communication to
                stakeholders to help ensure their commitment and participation in efforts
                to modernize flood maps.

             8. Re-evaluate the Mapping Information Platform system development
                approach and make changes to ensure that (a) user and technical
                requirements are fully identified, approved, and addressed to support
                systems development; (b) contractor expectations are clearly defined; and,
                (c) standard methodologies for system development are followed to help
                manage costs, schedules, and results.

Management Comments and OIG Evaluation
             We obtained written comments on a draft of this report from the Acting
             Director, Mitigation Division. We have included a copy of the comments in
             their entirety at Appendix B.


                 Challenges in FEMA’s Flood Map Modernization Program

                                       Page 39
In the comments, the Acting Director concurred with all of the findings and
recommendations in our report. The Acting Director said that the
observations in our report are valuable to FEMA’s ongoing improvement
efforts and that the recommendations are generally consistent with the
agency’s current plans. The Acting Director said that FEMA, in fact, had
made considerable progress over the previous few months with the flood map
modernization program. In attachments to these general comments, and in
response to each of our report recommendations, the Acting Director
summarized progress that FEMA has made in flood map modernization and
outlined plans for future improvements. We believe that such efforts are good
steps toward addressing the various issues we raised in our report and look
forward to learning more about continued progress and improvements in the
future.

Specifically, in response to Recommendation 1, the Acting Director outlined
several actions that FEMA has taken, or will take, to review and revise the
MHIP to meet stakeholder needs better. For example, the Acting Director
said that updates to the MHIP in FY 2006 to 2008 will include improvements
in projected flood map modernization sequencing and, as available, funding
for high-risk areas. This updated information will be accompanied by a
description of differences between mapping and funding needs addressed in
the MHIP and those needs identified in state and regional business plans.
Further, the Acting Director stated that program managers are working to
define end-state objectives of flood map modernization and develop a long-
term strategy for producing and maintaining accurate flood maps nationwide.
To ensure their engagement and commitment, stakeholder comments on the
MHIP and its subsequent revisions will be incorporated in the long-term
planning efforts.

In response to Recommendation 2, the Acting Director indicated that FEMA
is holding a series of meetings with representatives of state and local partners
to obtain input and agreement on how best to implement and ensure
compliance with the agency’s quality standards. The agency also had
published within the previous month guidance and protocols for conducting
flood studies in the Atlantic and Gulf Coast regions.

The Acting Director outlined various efforts to address Recommendation 3,
regarding the need for improved oversight of contractor program
management. Specifically, the Acting Director stated that FEMA is
strengthening its use of the Earned Value Management System for reporting
and tracking performance in carrying out contract task orders and flood
studies. The Acting Director indicated that such strengthened performance
management would be accomplished through improved metrics, training,
integrated baseline reviews, and formal monthly evaluations of flood map
modernization program status. The Acting Director said that FEMA will
provide continued enforcement of the IT procurement policy in place to

    Challenges in FEMA’s Flood Map Modernization Program

                          Page 40
ensure pre-approval of any IT purchases over a set dollar amount. Further,
FEMA continues to use its quality control contractor to ensure the quality of
deliverables and affirms that actions will be taken to address
recommendations made by that contractor.

The Acting Director discussed in his comments FEMA’s commitment to
addressing our report Recommendations 4 to 7, regarding communication,
outreach, and partnership on map modernization activities. Specifically, the
Acting Director stated that FEMA will continue to work closely with the DHS
Geospatial Management Office to develop and formalize data sharing
agreements with other organizations, such as the National Geodetic Survey,
the U.S. Army Corps of Engineers, and the U.S. Geological Survey, to reduce
overlaps and maximize efficiencies. FEMA recently finalized, and is working
to implement, its data coordination policy to help govern the dissemination of
federal mapping data to stakeholders. FEMA recognizes the importance of
developing improved guidance and communicating to stakeholders on the
need to use the official elevation data standard to help ensure the accuracy of
modernized flood maps. Further, although FEMA already has taken steps to
improve regional outreach, the agency also will provide guidance to its
regional offices, emphasizing increased coordination with state map
modernization stakeholders to ensure their commitment and participation.

Finally, in response to Recommendation 8 on re-evaluating the mapping
platform development approach, the Acting Director stated that requirements
analysis meetings and pilot tests help ensure that system requirements are
clearly identified, documented, and approved. Daily and weekly meetings
also are held to review system development status, identify problems, and
remove obstacles to program success. FEMA will use independent
verification and validation processes to enforce use of a proven, standard
system development methodology. The agency will link the implementation
of process and product improvement recommendations resulting from these
independent verification and validation processes to future metrics for IT
project management.




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 41
Appendix A
Scope and Methodology


As background for our review, we researched U.S. laws, federal guidance, and
DHS directives relating to floodplain management, mapping, and the National
Flood Insurance Program. We obtained documentation through internet
searches relating to map modernization, mapping communities, IT
requirements and FEMA guidelines and specifications for mapping partners.
Additionally, we reviewed FEMA OIG and GAO reports to learn more about
their findings and recommendations related to map modernization.

To accomplish our review objectives, we first met with FEMA representatives
to learn about their roles, responsibilities, and activities relating to the Multi-
Hazard Flood Map Modernization Program. We conducted individual
interviews with FEMA’s Chief Information Officer and the Geospatial
Information Office to identify management directives that apply to map
modernization’s IT infrastructure and to evaluate FEMA’s geospatial
coordination and subsequent reporting on those efforts. In addition, we held
meetings with FEMA’s Risk Identification Branch Chief and map
modernization staff responsible for contract or oversight; communications and
outreach; IT development, management, and acceptance; and engineering
functions. These meetings helped us gauge the effectiveness of FEMA’s
contract management, coordination, and IT management activities as well as
broaden our understanding of the map modernization program in general.

We interviewed staff of the primary contractor selected to support map
modernization efforts, to learn about progress, challenges, and successes they
encountered in managing the program. The contractor’s team leader and staff
members assisting in the program told us about their experiences with FEMA
and gave us periodic status updates on the program. Also, we interviewed
subcontractors, indefinite delivery/indefinite quantity contractors, and
individual cooperative technical partners-sanctioned contractors to determine
the quality of FEMA’s management of the program, communication and
coordination, with stakeholders, and use of IT to support mapping efforts.

We met with a number of stakeholders representing the Map Modernization
Coalition that supported funding for map modernization. These stakeholders
included the Association of State Floodplain Managers and the American
Congress of Surveyors and Mappers. The goal of these meetings was to
determine stakeholder satisfaction with the program’s status, learn about
communication and outreach activities, and evaluate management of the IT
infrastructure.

We held interviews with agencies with which FEMA coordinated and
collaborated on map modernization issues. These included the U.S.
Geological Survey, the National Oceanic and Atmospheric Administration’s
National Geodetic Survey, the U.S. Army Corps of Engineers and the U.S.

    Challenges in FEMA’s Flood Map Modernization Program

                          Page 42
Appendix A
Scope and Methodology


Census. Through the course of these meetings, we obtained information
relating to FEMA’s participation in the Federal Geographic Data Committee,
the National Digital Orthophoto Program, and the National Digital Elevation
Program, as well as its support to Geospatial One-Stop.

During the course of our review, we conducted site visits to three FEMA
Regions across the U.S., selected based on mapping activity and suggestions
by FEMA officials. We visited FEMA Regions IV, V, and IX, all of which
had large numbers of mapping studies, varying levels of cooperative technical
partner participation, and unique map needs and characteristics. In each
location, we visited with representatives of the FEMA regional offices,
regional management centers, mapping partner organizations, and indefinite
delivery/indefinite quantity contractors. Subcontractors interviewed provided
a broad understanding of stakeholder needs, communication and IT
requirements, as well as progress made to date. These interviews assisted in
our ongoing research of FEMA’s overall management of the Multi-Hazard
Flood Map Modernization Program, as well as the agency’s coordination and
communication with all levels of government, mapping partners, and other
stakeholders. In addition, we evaluated the agency’s multi-million dollar MIP
system, its requirements, specifications, capabilities, and overall usefulness.

We attended FEMA’s 2005 Map Modernization Conference in Kansas City,
Missouri. The conference, an annual event at which all Map Modernization
Program Staff convene, focused heavily on performance-based management
as well as programmatic implementation issues. During the conference, we
attended formal working sessions ranging in topics from cooperating technical
partner development to discussions concerning the next release of the MIP.
Our participation in these events broadened our understanding of the program
and FEMA’s management, coordination, and use of IT infrastructure to meet
program goals.

We conducted our review from August 2004 through April 2005 at FEMA
headquarters and related government and industry organizations in the
Washington, D.C. metropolitan area, as well as in FEMA Region V (Illinois
and Wisconsin), Region IX (Arizona and California), Region IV (Florida,
Georgia, Alabama, and North Carolina), and at FEMA’s 2005 Map
Modernization Conference in Kansas City, Missouri. We performed our work
according to generally accepted government auditing standards. The principal
OIG points of contact for this audit are Frank Deffer, Assistant Inspector
General, Information Technology Audits and Sondra McCauley, Director,
Information Management Division. Other major contributors are listed in
Appendix C.




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 43
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 44
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 45
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 46
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 47
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 48
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 49
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 50
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 51
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 52
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 53
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 54
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 55
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 56
Appendix B
Management Response To Draft Report




    Challenges in FEMA’s Flood Map Modernization Program

                          Page 57
Appendix C
Major Contributors To This Report


Information Management Division

Sondra McCauley, Director
John Shiffer, Audit Manager
Theresa Spinola, Auditor
Marlow Henderson, Auditor




    Challenges in FEMA’s Flood Map Modernization Program

                            Page 58
Appendix D
Report Distribution


Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
General Counsel
Executive Secretariat
Under Secretary, Emergency Preparedness and Response
DHS Chief Information Officer
Emergency Preparedness and Response Chief Information Officer
FEMA Mitigation Division Acting Director
DHS Office of Security
DHS Audit Liaison
Emergency Preparedness and Response Audit Liaison
DHS Public Affairs
Legislative Affairs

Office of Management and Budget

Homeland Bureau Chief
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




     Challenges in FEMA’s Flood Map Modernization Program

                           Page 59
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
